LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 7, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-267:
RE NO. 19-348:

OUR LADY OF GUADALUPE SCHOOL V. AGNES MORRISSEY-BERRU
ST. JAMES SCHOOL V. DARRYL BIEL, AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF KRISTEN BIEL

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Judicial Watch, Inc., referenced above contains 4,207 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of February 2020.

